       July 9, 2002




   Financial Management

  Department of Defense’s
  Compliance with Internal Use
  Software Accounting Standards
  (D-2002-127)




             Office of the Inspector General
                          of the
                 Department of Defense

                                Constitution of the
                              United States of America

No Money shall be drawn from the Treasury, but in Consequence of Appropriations
made by Law; and a regular Statement and Account of the Receipts and Expenditures
of all public Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this audit report, visit the home page of the
  Inspector General of the Department of Defense at
  www.dodig.osd.mil/audit/reports or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
COTS                  Commercial Off-the-Shelf
DFAS                  Defense Finance and Accounting Service
DoDEA                 Department of Defense Education Activity
FMR                   Financial Management Regulation
PP&E                  Property, Plant, and Equipment
SFFAS                 Statement of Federal Financial Accounting Standards
USD(C/CFO)            Under Secretary of Defense (Comptroller)/Chief Financial
                         Officer
WAAS                  Washington Headquarters Services Allotment Accounting System
WHS                   Washington Headquarters Services
        Office of the Inspector General of the Department of Defense
Report No. D-2002-127                                                      July 9, 2002
  (Project No. D2001FH-0079)

                 Department of Defense’s Compliance With
                Internal Use Software Accounting Standards

                               Executive Summary

Who Should Read This Report and Why? Financial managers, budget analysts, and
managers responsible for property accountability should read this report. This report
provides insight in implementing new or changing guidance from the Financial
Accounting Standards Board.

Background. This audit was performed to support the requirements of the Chief
Financial Officers Act of 1990, as amended by the Federal Financial Management Act
of 1994. The accuracy of the $113.8 billion of property, plant, and equipment reported
on the FY 2001 DoD Agency-Wide Financial Statements is essential to DoD receiving
favorable audit opinions on its financial statements. From FY 1999 to FY 2002,
DoD budgeted more than $19 billion annually for information technology and national
security systems. However, on the FY 2001 DoD Agency-Wide Financial Statements,
DoD reported less than $1.4 billion for software for the entire Department. More than
$874 million of this amount was from two organizations, the U.S. Transportation
Command and the Defense Finance and Accounting Service. On the FY 2001 DoD
Agency-Wide Financial Statements, the Defense Finance and Accounting Service
reported $1 billion in software costs for the Other Defense Organizations. Within the
Other Defense Organizations are the Defense agencies, the Office of the Secretary of
Defense, the Joint Staff, and the DoD Field Activities. Our audit involved the Office of
the Secretary of Defense, the Joint Staff, and the DoD Field Activities, referred to
collectively as DoD Components.

Results. The DoD Components were expensing instead of capitalizing software on the
financial statements. The DoD Components did not comply with the reporting
requirements of the Statement of Federal Financial Accounting Standard No. 6,
“Accounting for Property, Plant, and Equipment,” and the Statement of Federal
Financial Accounting Standard No. 10, “Accounting for Internal Use Software.” Only
two of the six DoD Components visited reported capitalized software on the DoD
FY 2000 and FY 2001 DoD Agency-Wide Financial Statements. As a result, the DoD
Components understated the software asset account (1830) by at least $44.6 million in
FY 2000 and at least an additional $10.3 million in FY 2001. In addition, DoD
Components erroneously expensed at least $188.7 million in FY 2000 and at least an
additional $102.8 million in FY 2001. More specific guidance from the Under
Secretary of Defense (Comptroller)/Chief Financial Officer on accounting for internal
use software and a system to capture the costs would improve the accuracy of the
reported amounts on the financial statements. (See finding A for the detailed
recommendations.)

The DoD Components did not have subsidiary ledgers to support the amounts reported
in the general ledger. As a result, they did not have the necessary information to
calculate software depreciation and to support the reported values for internal use
software. Complying with DoD regulations for property accountability should provide
the information needed to calculate and support reported values for software
depreciation and internal use software. (See finding B for the detailed
recommendations.)

Management Comments. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer and the Director, Defense Finance and Accounting Service concurred
with the recommendations. The Directors of the Defense Human Resources Activity,
the Department of Defense Education Activity, and TRICARE Management Activity
also concurred with the recommendations and agreed that additional guidance was
needed to properly implement the requirements of the Statement of Federal Financial
Accounting Standard No. 10. We made minor revisions to the report based on
comments from the TRICARE Management Activity. We also worked closely with the
“Internal Use Software” working group composed of the Property, Plant, and
Equipment Program Management Office and individuals from the financial management
and information technology communities. We commend the staff on their aggressive
approach to implementing corrective actions. See the Finding section of the report for
a discussion of the management comments and to the Management Comments section of
the report for the complete text of the comments.




                                          ii
Table of Contents

Executive Summary                                                              i


Introduction
     Background                                                                1
     Objectives                                                                2

Findings
     A. Compliance With Internal Use Software Accounting Standards             3
     B. Compliance With DoD Guidance on Property Accountability               16

Appendixes
     A. Audit Process
         Scope and Methodology                                                18
         Management Control Program Review                                    19
         Prior Coverage                                                       19
     B. Report Distribution                                                   20

Management Comments
     Office of the Under Secretary of Defense (Comptroller)/Chief Financial
       Officer                                                                23
     Defense Finance and Accounting Service                                   24
     Department of Defense Human Resources Activity                           27
     Department of Defense Education Activity                                 28
     TRICARE Management Activity                                              29
Background
    Other Defense Organizations. This audit was performed to support the
    requirements of Public Law 101-576, the “Chief Financial Officers Act of
    1990,” November 15, 1990, as amended by Public Law 103-356, the “Federal
    Financial Management Act of 1994,” October 13, 1994, which requires DoD to
    prepare annual audited financial statements. The DoD Agency-Wide financial
    statements include a reporting entity entitled “Other Defense Organizations-
    General Fund.” Within this entity is the Office of the Secretary of Defense, the
    Joint Staff, and smaller field activities that individually represent DoD
    programs. We judgmentally selected the Office of the Secretary of Defense, the
    Joint Staff, TRICARE Management Activity, Defense Human Resources
    Activity, Department of Defense Education Activity (DoDEA), and the
    Washington Headquarters Services (WHS) for our review. We also sent survey
    questionnaires to various Defense agencies to obtain general information on
    what the agencies were doing to comply with the Statement of Federal Financial
    Accounting Standard (SFFAS) No. 10.

    Statement of Federal Financial Accounting Standards. Our audit focused on
    compliance with two Statements of Federal Financial Accounting Standards.
    SFFAS No. 6, “Accounting for Property, Plant, and Equipment,”
    (SFFAS No. 6) was issued with an effective implementation date of October 1,
    1997. SFFAS No. 6 requires all Federal agencies to capture and report
    contractor-developed software and commercial off-the-shelf (COTS) software
    costs as property, plant, and equipment (PP&E) costs. SFFAS No. 6 did not
    permit the capitalization of internally developed software except in those
    instances when management intended to recover the cost through user charges.
    SFFAS No. 10, “Accounting for Internal Use Software,” effective October 1,
    2000 (SFFAS No. 10) amended SFFAS No. 6 and requires the capitalization of
    internal use software whether it is COTS, contractor-developed, or internally
    developed software. The capitalization of internally developed software was no
    longer restricted to those instances where development costs were recouped
    through user charges.

    Information Technology Resources. Agencies are required to report software
    that meets the DoD capitalization threshold. Software has its own general
    ledger account codes. The “Construction-in-Progress” account 1720 is the
    account used to accumulate all software costs. The 1830 account, “Information
    Technology Software,” is the account to be used to record software as an asset
    if all accumulated costs exceed the capitalization threshold. Beginning in
    FY 2002, the “Internal-Use Software In Development” account 1832 will be
    used instead of 1720. Table 1 presents the amounts included in the President’s
    budget for FY 2001 for information technology to include software and
    hardware costs for all of DoD.




                                       1
      Table 1. FY 2001 Information Technology Resources by Component
                                 (millions)
        Component                  FY 1999             FY 2000           FY 2001

   TRICARE                     $      807.9        $     789.0       $     811.5
   OSD                                365.9              343.4             277.8
   DHRA                                86.7              114.9             110.1
   WHS                                111.1               128.8             141.0
   Joint Staff                         74.9                71.3              90.3
   DoDEA                               69.4                48.2              63.1
   Other DoD Components            18,182.8            18,499.3          18,419.9
    Total                       $ 19,698.7         $ 19,994.9         $ 19,913.7

   DHRA - Defense Human Resources Activity
   DoDEA - DoD Education Activity
   OSD - Office of the Secretary of Defense
   TRICARE - TRICARE Management Activity
   WHS - Washington Headquarters Services

Objectives
     Our overall audit objective was to determine whether DoD is in compliance with
     SFFAS No. 10. This standard requires all Federal agencies to report internal
     use software in a specified and consistent manner. To achieve this objective, we
     also reviewed the procedures for collecting and reporting internal use software
     on the financial statements and the management control program as it related to
     the overall objective. See Appendix A for a discussion of the audit scope,
     methodology, and review of the management control program.




                                        2
           A. Compliance With Internal Use
              Software Accounting Standards
           The DoD Components did not comply with the reporting requirements of
           SFFAS No. 6, “Accounting for Property, Plant, and Equipment” and
           SFFAS No. 10, “Accounting for Internal Use Software.” The
           noncompliance occurred because DoD policies and procedures were
           either not in place or not followed to ensure that internal use software
           was reported in a specified and consistent manner. Specifically,

               •   the Under Secretary of Defense (Comptroller)/Chief Financial
                   Officer (USD[C/CFO]) did not update and distribute guidance on
                   the new requirements of SFFAS No. 10 in a timely manner;

               •   the DoD Components and the Defense Finance and Accounting
                   Service (DFAS) did not have standard accounting codes that
                   clearly defined whether software costs should be capitalized,
                   expensed, or placed in a software in development account. In
                   addition, DoD guidance was unclear on the use of the
                   construction-in-progress account (1720);

               •   the DoD Components did not have a cost accounting process to
                   capture material internal costs related to COTS, contractor-
                   developed, and internally developed software. As a result, the
                   software asset account (1830) was understated by at least
                   $44.6 million in FY 2000 and at least an additional $10.3 million
                   in FY 2001. In addition, the construction-in-progress account
                   (1720) was understated by at least $188.7 million in FY 2000 and
                   at least an additional $102.8 million in FY 2001. These errors
                   also overstated expenses for FYs 2000 and 2001.

Survey Questionnaire
    In order to satisfy the requirements of the internal use software accounting
    standards, a significant amount of work is required by DoD. In May 2001, we
    prepared and distributed a questionnaire on accounting for internal use software
    to selected DoD Components within the National Capital Region. The purpose
    of the survey was to gather information about the Department’s internal use
    software reporting. Eleven organizations responded to the survey. The
    organizations responding affirmatively to a survey question are identified in
    Table 2.




                                        3
                                   Table 2. Survey Results


             Survey Question                                Components Indicating an
                                                             Affirmative Response

Had established an inventory record of             DTRA, DeCA, DCAA, NIMA
software.
Issued implementing guidance on internal use       DeCA, DFAS
software.
Charged the 1830 Information Technology            Although no component responded affirmatively
Software account for software costs.               in the survey, the data indicate that DFAS did
                                                   charge the 1830 account for software costs.
Charged an account other than 1720 for             DeCA, DISA, DFAS, DTRA, DHRA, NIMA
construction-in-progress

Had infrastructure in place to capture             DeCA, DCAA, DISA, DTRA
software costs.
Reported internal use software in financial        DTRA, DeCA, DCAA
systems, including FY 2000 year-end
balances.
Made material enhancements/upgrades to             NIMA, DTRA, Joint Staff- (J7)
software.
Compared budgeted costs for software to            DHRA, NIMA, TRICARE
actual disbursements for software.

                             List of Eleven Survey Respondents

DARPA-Defense Advanced Research Projects Agency       DoDEA-DoD Education Activity
DCAA-Defense Contract Audit Agency                    DTRA-Defense Threat Reduction Agency
DeCA-Defense Commissary Agency                        Joint Staff-J3, J4, and J7
DFAS-Defense Finance and Accounting Service           NIMA-National Imagery and Mapping Agency
DHRA-Defense Human Resources Activity                 TRICARE-TRICARE Management Activity
DISA-Defense Information Systems Agency


       DFAS and WHS had prior knowledge of SFFAS No. 10. The Defense
       Commissary Agency response to the survey implied that they also had prior
       knowledge of SFFAS No. 10. Because of their knowledge, the Defense
       Commissary Agency and DFAS had issued internal guidance on accounting for
       internal use software. The survey showed that seven Components did not
       maintain inventory records. Seven Components also noted that they did not
       have an infrastructure or cost accounting process to capture the costs of
       developing internal use software. Few charges had been made to the general
       ledger account code 1830 even though the DoD Components budgeted millions
       of dollars for information technology and the use of the 1830 account was
       applicable in FY 2000.

                                               4
Updating and Disseminating Guidance
    SFFAS No. 10 Guidance. SFFAS No. 10, “Accounting for Internal Use
    Software,” was published on October 9, 1998, with an effective date of
    FY 2001. SFFAS No. 10 further clarified and defined the term “internal use
    software,” incorporating the reporting of all three types of software regardless
    of whether an organization was a working capital or general fund activity.
    SFFAS No. 10 also included specific rules for recognition, measurement, and
    disclosure. However, DoD guidance was not promptly updated to incorporate
    these new software-reporting requirements. In addition, DoD did not adequately
    disseminate the guidance to all DoD Components. Although Federal entities
    were allowed to continue their current accounting practices for internal use
    software for accounting periods prior to and including September 30, 2000, the
    Financial Accounting Standards Advisory Board encouraged early
    implementation of SFFAS No. 10.
    DoD Guidance. The DoD software reporting policies are contained in the DoD
    Financial Management Regulation (FMR), Volume 4, chapters 6 and 7. The
    August 2000 chapter 6 revisions for software essentially incorporated the key
    provisions of SFFAS No. 10. Chapter 6 defines the three types of software and
    uses similar language as the standard to describe what COTS and contractor-
    developed software costs to capitalize. For internally developed software, it
    adds details about which costs to capitalize. Chapter 6 states that data
    conversion costs are not capitalized, and capitalization for developed software
    should not begin until after final acceptance testing. DoD Components must
    capitalize enhancements when the cost of the enhancement exceeds the
    capitalization threshold and the enhancement adds significant additional
    capability. Finally, chapter 6 includes guidance on how, when, and what costs
    to write off when software is impaired along with criteria for determining
    impairment.

    The September 1999 revision to chapter 7 includes a change from the January
    1995 version that stated costs for in-house developed software be transferred
    from an Inventory-Work in Process-In-House account. The September 1999
    revision referenced the construction-in-progress account for software in
    development and explained what costs should be capitalized for the three
    categories of software presented in SFFAS No. 10. It requires capitalization of
    software that has an expected life of 2 or more years. Finally, it extends the
    requirement for depreciating software to all software, not just software used by
    components that recover costs through the sale of goods and services.

    On December 21, 2000, the USD(C/CFO) issued a memorandum entitled “New
    Standard for Internal Use Software” nearly 2 months past the effective date for
    implementation. In the memorandum, the USD(C/CFO) stated that because of
    the amount of software within DoD, “… all DoD communities should be made
    aware of the new mandatory requirements. Therefore, the information in the
    attachment should be disseminated in a manner that will achieve the widest
    possible distribution.” We agree with this concern and believe that in addition
    to the regular distribution channels, electronic versions of changes to major



                                        5
    guidance should be sent to decisionmakers in the DoD functional communities.
    This process would serve to provide greater awareness throughout DoD of
    major policy changes.

    DFAS Guidance. The Department of Defense Financial Management
    Improvement Plan, Volume I of II, January 2001, states that DFAS has a
    responsibility to produce procedural guidance to supplement USD(C/CFO)
    policy guidance. Specifically, DFAS is expected to provide consistent policies
    and procedures for financial transactions throughout DoD, ensure compliance
    with financial policies, and review safeguards for verifying the existence of
    assets. For software reporting, the Department of the Treasury established the
    1830 account for capitalized software costs and the 1720 account for PP&E,
    which includes software in development. Subsequently, DoD incorporated both
    accounts in the FMR. Once DoD updates the FMR, DFAS is responsible for
    incorporating the new accounts in its financial reports and for providing
    procedural guidance to Components on what software costs should be reported
    to DFAS. This may require a new conversion system from the DoD
    Components’ budget data to the general ledger accounts. DFAS did not provide
    this guidance to the DoD Components. As a result, software costs that should
    have been capitalized were expensed, and software in development costs were
    erroneously posted to other accounts such as “Equipment” and “Equipment Not
    In Use.”

Accounting for Software Costs
    The DoD Components did not have adequate procedures or processes in place
    for recording software transactions. The lack of adequate procedures occurred
    because DFAS and the DoD Components did not have standard accounting
    codes that identified whether the cost of a software item should be recorded as
    an asset (capitalized), an expense (expensed), or placed in a construction-in-
    progress account for software in development. In addition, DoD guidance was
    unclear on the use of the construction-in-progress account (1720). As a result,
    with minor exceptions, DoD Components expensed nearly all items rather than
    capitalizing the items when the costs met or exceeded the DoD capitalization
    threshold, currently at $100,000.

    To correctly record a transaction, the accounting entity must know whether the
    transaction is for hardware, software, or services. The entity must know
    whether the transaction amounts are for continuing operations or modernization.
    In addition, to further decide the appropriate way to account for costs, the DoD
    Component identifies the source of the software, that is, COTS, contractor-
    developed, or internally developed. For COTS software, the DoD Component
    must determine whether the cost is under or over the DoD capitalization
    threshold. If under the threshold, the DoD Component must record the
    transaction to an expense account; if over the threshold, to a capital account.
    When software is contractor-developed, the DoD Component must first identify
    whether the total cost of the project (contract) is under or over the DoD
    capitalization threshold. If the contract is over the threshold, the DoD
    Component must determine whether the contract includes costs that it should
    capitalize and costs it should expense. For example, the DoD Component must
    expense the cost of data conversion when purchasing new software. Until the

                                        6
software in development is completed, the DoD Components must record the
costs to be capitalized in a construction-in-progress account. When completed,
the project costs are transferred to an asset account (capitalized) and the in-
process account is reduced by the same amount.

Washington Headquarters Services Allotment Accounting System. The
Washington Headquarters Services Allotment Accounting System (WAAS) is
the accounting system used by all the DoD Components reviewed, except for the
Defense Human Resources Activity. Budget personnel from the Joint Staff,
TRICARE Management Activity and DoDEA reported cost data via a transfer
file to WAAS. The costs were classified, not by general ledger codes, but by
four-digit object class codes used by the DoD Components. For example, the
WAAS would capitalize or expense an asset based on the appropriation used. If
the software was purchased with an investment appropriation such as
procurement, or research and development, had an object class code 31, and
cost more than $100,000, WHS would capitalize it. The WAAS then
downloaded the data into its system. If the software was procured with an
investment appropriation, cost more than $100,000 but was not coded with
object class 31, the transaction would have been expensed. The inconsistent use
of object class codes resulted in inconsistencies in how costs were defined and
reported.

Capitalized Versus Expensed Codes. The Office of Management and Budget
developed object classes or accounting codes that identify the transactions of the
Federal Government by the nature of the items or services it purchases. Every
obligation recorded by the Government must be coded with an object class.
Organizations generally add additional digits to the basic object class code to
give further classification breakdown to transactions. As a result, the DoD
Components did not have uniform codes to distinguish among recording
transactions to a software capital asset account, to an expense account, or a
construction-in-process account. Each activity had its own set of object classes.
For Chief Financial Officer reporting, the object classes are mapped to standard
general ledger account codes, which are the codes used to classify transactions
in the general ledger. However, the lack of uniformity hindered the consistent
mapping of these object classes to general ledger accounts.

The DoD FMR also establishes broad classes of object class codes in Volume 1,
Appendix A, “Object Classification,” May 1993. Approved object classes for
recording software transactions are either in the 25 series, “Other Services,”
26 series, “Supplies and Materials,” or 31 series, “Equipment.” The
explanation accompanying object class 25 states that it is to be used for custom
software, which is defined as “Obligations for contracts covering development
of software of $25,000 or less.” The 26 series states that the object class is for
recording transactions for off-the-shelf software purchases and licenses of
$25,000 or less. Object class 31 is to be used for off-the-shelf and custom
software costing more than $25,000. These explanations are not entirely
consistent with other DoD FMR chapters and need to be revised for clarity. For
example, the object classes should be revised to match volume 4, chapter 6,
which establishes the three types or source of software, that is, COTS,
contractor-developed, and internally developed. The 25 series should refer to
contractor-developed, the 26 series should refer to COTS, and the 31 series
should refer to all three types of software when the cost meets or exceeds the

                                     7
capitalization threshold. An object class also needs to be added for internally
developed software. Additionally, the $25,000 amount was the capitalization
threshold in effect when DoD published the Appendix, but the current threshold
is $100,000.

Although the DoD FMR establishes groups of object classes, the DoD
Components either established specific object classes or else used the object
class codes provided by their accounting entities. The Office of the Secretary of
Defense and WHS used the same object classes for recording transactions.
TRICARE Management Activity used the object classes provided by DFAS, and
DoDEA used its own object classes. The Joint Staff used object class codes that
were originally developed by DFAS, and had not been updated since October
1995.

Changes relating to object class codes need to be implemented. A new object
class code should be established for internal use software to be reported
consistently in the financial records. This means that the amount of internal use
software costs having a cumulative value above the current financial threshold
amount would have to be identified by a new object class code. The object class
codes would identify capitalizable, expendable, and software in development.
This would allow for consistent recording of software costs.

Cost Accumulation. SFFAS No. 6 was issued with an effective implementation
date of October 1, 1997. SFFAS No. 6 requires all Federal agencies to capture
and report contractor-developed software and COTS software costs as PP&E
costs. On the FY 2000 and FY 2001 financial statements, version 2, TRICARE
did not accurately report all applicable software costs as software capitalized
assets. TRICARE had deployed at least $44.6 million worth of software to the
Services for their use in FY 2000 and $10.3 million in FY 2001. These costs
should have been reported in the TRICARE 1830 account.

Use of Appropriation Codes. As stated before, whether WAAS capitalizes
costs depends upon the appropriation used and the object code. This will be
shown in a trial balance by fiscal year and by appropriation. To know the total
amount of PP&E or software reported, we must look at each trial balance by
appropriation. Software may be reported using procurement or research and
development appropriations. The totals for these appropriations are then rolled
up into a figure on the consolidated trial balance. However, when reviewing the
trial balances, both the DoD Components and DFAS had problems determining
first, whether any amount was capitalized for software, and second, if so, how
much.

When we asked both DFAS and the Office of the Secretary of Defense
management about the $569 million reported in the construction-in-progress
account (1720) on the version 1 financial statements, we found that the costs
were for base realignment projects, not software in development costs. Other
DoD Components had funds shown in the construction-in-progress account, but
the applicable appropriation was the military construction appropriation. For
example, in FY 2001, the TRICARE Management Activity used the research
and development appropriation to account for software costs. However, during
our review of the year-end financial statements, the 1720 account had
$419 million that related to military construction, not research and development.

                                    8
Use of the Construction-in-Progress Account. The DoD Components did not
maintain a construction-in-progress account for accumulating the costs of
software in development. The DoD Components did not maintain the account
because DoD lacked clarity in its guidance on the construction-in-progress
account. As a result, DoD Components were expensing most costs for software
in development and were not accumulating expenditures for capitalization when
projects were completed.

Although SFFAS No. 6 required reporting COTS and contractor-developed
software beginning in FY 1998, it did not address recording costs for software
in development. In addition, the DoD reporting guidance in effect at the time
was inadequate. The FMR, chapter 7, January 1995, included an erroneous
sample accounting entry for software showing that software in development was
recorded to Inventory-Work in Process-In-House.

In September 1999, USD(C/CFO) reissued chapter 7, with significant additional
policy guidance for reporting software amounts, including using the
construction-in-progress account to record software in development. Internal
use software was defined in terms of three categories. The policy guidance
included an example of an accounting entry showing that the offset to the
internal use software account was the construction-in-progress account. When
completed, the agency must capitalize the software and reduce the construction-
in-progress account by the same amount.

USD(C/CFO) reissued chapter 6 in August 2000. The change created
uncertainty about use of the construction-in-progress account for software as
called for by chapter 7 in September 1999. Specifically, when describing
account 1720, “Construction-in-Progress,” chapter 6 states that the construction-
in-progress account should be used to accumulate the costs of real property
construction projects. There was no mention that agencies should use the
account to record the cost of software in development.

For FY 2002, the Department of the Treasury created a new general ledger
account code for software in development. The code, 1832, is defined as
“Internal-Use Software in Development.” Incorporating this code in the DoD
FMR and modifying the DoD FMR to eliminate discussion about using account
1720, Construction-in-Progress, for accumulating the costs of software in
development, should clearly identify the requirement to report software
development costs.

Because the DoD Components did not account for software in development, we
used several means to arrive at the estimated minimum value of unreported
software in development costs displayed in Table 3. We derived our estimate
for the Joint Staff by adding together the value of the contracts it awarded for
four major systems currently under development. The four systems included the
Network Warfare Simulation, Joint Satellite Communication Architecture
Planning and Evaluation, Joint Warfare System, and Joint Simulation System.
The TRICARE Management Activity calculated the FY 2000 estimate shown in
Table 3 from the software costs allocated for the Clinical Information
Technology Program. The $52.7 million shown as unreported in FY 2001 for
TRICARE was obtained from the TRICARE Capital Asset Report. TRICARE
sent this report to DFAS showing the amount of completed software as well as

                                    9
the amount of software under development. DFAS did not post the costs to the
FY 2001 year-end financial statements. Finally, we obtained the estimate for
the Office of the Secretary of Defense High Performance Computer Program
from the “DoD High Performance Computing Modernization Program-
Modernization Plan 2000, June 2000.” Our estimates are not intended to be a
substitute for agency work to establish the construction-in-progress amount for
software currently under development. Rather, our intent is to establish an
order of magnitude estimate about the value of the unreported software costs.
The DoD Components and DFAS should know whether a specific number of
projects with reported cost expenditures of a specific amount were reported in
the financial statements in the 1720 account.

           Table 3. Comparison of Reported Amounts and Unreported
             Amounts on DoD Financial Statements (1720 Account)
                                 ($ Millions)

  Other Defense       FY 2000       FY 2000         FY 2001       FY2001
  Organizations       Reported      Unreported      Reported      Unreported

  Joint Staff             $0.0           $78.1          $0.0          $27.8

  TRICARE                  0.0           23.4            0.0           52.7

  Office of the            0.0           87.2            0.0           22.3
  Secretary of
  Defense

   Total                  $0.0          $188.7          $0.0          $102.8



As stated before, TRICARE sent a Capital Asset Report to DFAS in response to
the year-end data call for general property, plant, and equipment information.
We commend TRICARE for providing the requested information to DFAS.
However, the Capital Asset Report does not provide enough information to
accurately calculate the amount of amortization or depreciation associated with
completed projects. Inspector General of the Department of Defense Report
No. D-2000-128, “Defense Health Program Financial Reporting of General
Property, Plant, and Equipment,” May 22, 2000, discusses the need for
property records to accumulate software development costs and provide PP&E
information for annual financial statements. The report recommended that the
TRICARE Management Activity develop property records to accumulate and
report software costs to DFAS. The property records would provide supporting
documentation for the amount of software reported on the financial statements
and financial reports. In addition, the information contained in the property
records is needed as a basis for calculating accumulated amortization or
depreciation. Without this information, there would be no support for the
reported amounts. The property records would also serve as a subsidiary ledger
to support the costs reported on the financial statements. The need for property
records will be further discussed in finding B.


                                   10
Cost Accounting Process
    DoD Components have not established a cost accounting process to capture
    material internal costs related to software investment costs. A process is
    necessary in order to comply with SFFAS No. 10, which requires that all
    material costs related to the development of internal use software be reported.
    Since very few of the DoD Components develop their own software, the
    standard applies primarily to DoD Components that have material costs in
    implementing contractor-developed software. This classification would only
    apply to major programs exceeding the financial reporting threshold level for
    software, currently $100,000.

    SFFAS No. 10 requires that both direct and indirect costs be captured. Direct
    costs are primarily reflective of the time spent on a software project and the
    translation of the time through the payroll process to payroll costs. The system
    to capture these costs may be as simple as an existing project management
    system that records assigned time for each project and could be used to provide
    the basis for a payroll cost estimate. However, capturing indirect costs requires
    allocation and reclassification. Examples of indirect costs would include rent or
    utilities. In the case of rent, the organization would make an allocation
    assumption based on the square footage that personnel use to implement the
    software project. The portion of square footage used in the software project has
    to be translated into costs and ultimately charged to the internal use software in
    development account. In this case, the reclassification process is the accounting
    method used to transfer the costs from one account, the rent account, to another
    account, the internal use software in development account.

    The methodology used to capture and report material direct and indirect costs
    for internal use software requires coordination between the Components and its
    accountant, DFAS. In addition, coordination is required within sectors of the
    Components itself. Information technology personnel, specifically the project
    manager or managers of major projects are the personnel with the most
    up-to-date operational knowledge of their projects. The project’s phase and time
    allocations are factors that must be considered by resource management
    personnel in financial reporting.

Property, Plant, and Equipment Program Management Office
    Although DoD did not follow early implementation of SFFAS No. 10, the
    PP&E Program Management Office did establish an “Internal Use Software”
    working group to assist in implementing this new accounting standard.

    The group is composed of individuals from the financial management and
    information technology communities. The working group’s stated objectives are
    the following.

           •   Review the requirements of SFFAS No. 10 and the DoD FMR to
               clarify and develop any such additional guidance as may be needed.



                                        11
           •   Identify DoD internal use software meeting the reporting
               requirements.

           •   Develop a methodology to capture internal use software expenditures
               through DoD accounting systems for capitalization or expense.

           •   Draft reporting procedures to disclose, in DoD financial statements,
               the cost of internal use software.

    The working group held its first meeting on July 31, 2001. The establishment
    of the working group and the formulation of its stated objectives are positive
    steps taken to address the relevant SFFAS No. 10 issues.

Summary
    USD(C/CFO) and DFAS guidance was not adequate for timely, accurate, and
    consistent reporting of software costs. In addition, DoD did not provide
    adequate guidance to identify software as an asset or expense item and the need
    to record software in development in a construction-in-progress account. As a
    result, the DoD Components did not properly report the costs of COTS software
    and completed contractor-developed software on the FY 2000 and FY 2001
    DoD Agency-Wide Financial Statements. In view of the complexities,
    materiality, and pervasiveness of the issues applicable to SFFAS No. 10, the
    timeliness of the DoD response to its implementation was inadequate and did not
    ensure accurate and consistent reporting of internal use software.

Management Comments on the Finding and Audit Response
    TRICARE Management Activity Comments. The Defense Finance and
    Accounting Service, as the accountant for TRICARE, identifies the account
    codes to use for reporting TRICARE obligations and as such, a sentence should
    be added stating that DFAS is responsible for establishing the proper accounts
    for recording obligations. Table 1, entitled “Fiscal Year 2001 Information
    Technology Resources by Components,” is misleading in that it reflected the
    total Defense Health Program information technology funding and not the
    portion associated with software development. We recommend that the figures
    be changed to reflect the Defense Health Program Procurement and Research
    and Development funding.

    TRICARE does not develop its own object class codes. The Defense Finance
    and Accounting Service provided the object class codes to TRICARE. We
    recommend that the sentence be changed to say that TRICARE uses the object
    class codes provided by DFAS.

    The report incorrectly stated that TRICARE did not report any costs in the 1720
    account that related to research and development of software, only military
    construction. TRICARE provided DFAS with the obligations and DFAS should
    have properly posted the information. Copies of the data were provided to the
    audit team.


                                       12
For software under development, the statement that the data were not provided
is inaccurate. Work-in-progress data were provided to DFAS. The support
documents were also provided to the audit team. TRICARE did not calculate
the estimate of software under development as shown in Table 3 from the
software costs allocated for the Clinical Information Technology Program. This
program did not report any software costs. We recommend that the line be
eliminated from Table 3.

The sentence that reads “We recommend that the TRICARE Management
Activity develop property records to accumulate and report software costs to
DFAS,” should be changed to note that DFAS is responsible for providing
guidance on how to report software costs.

Where it is stated that DoD Components have not established a cost accounting
process to capture material internal costs related to software investment costs,
DFAS is responsible for providing that guidance to the DoD Components. The
guidance should identify how and what type of software should be used to
establish a cost accounting process. The sentence should be modified to reflect
that information.

The recommendation that directs DFAS, in conjunction with the DoD
Components, to calculate the amount of funds spent through September 30,
2001, for software development should be changed to state that DFAS should
provide guidance and reporting standards and a date for the DoD Components to
start reporting this information.

Audit Response. Where TRICARE states that the Defense Finance and
Accounting Service is responsible, as the accountant for TRICARE, for the
associated guidance on accounting for internal use software, in actuality, the
Under Secretary of Defense (Comptroller)/Chief Financial Officer is responsible
for the guidance. The Defense Finance and Accounting Service is responsible
for ensuring that the guidance is implemented consistently throughout DoD.
This requires implementing instructions and possibly system development or
other changes to comply with the guidance. We have so noted that requirement
in our recommendations to the Defense Finance and Accounting Service. No
change to the report is necessary.

To clarify what Table 1 represents, we changed the wording of the sentence that
precedes the table. We added that the table presents the amounts for
information technology to include software and hardware.

We did change the report to state that TRICARE used the object class codes
provided by DFAS. TRICARE did provide information to the auditors and
DFAS that supported software under development; however, the 1720 account
did not reflect that information. DFAS should have properly posted the data to
the 1720 account. At the end of each year, DFAS requires an activity to certify
that their trial balance accurately reflects its accounting position. When
TRICARE received the trial balance for certification, TRICARE should have
noted the error in the 1720 account.




                                   13
    Our comments on the property records were taken directly from a prior audit of
    TRICARE. As a result, to change the wording would improperly reflect how
    this prior finding was reported.

Recommendations, Management Comments, and Audit
Response
    A. 1. We recommend that the Under Secretary of Defense
       (Comptroller)/Chief Financial Officer:

           a. Send electronic versions of major changes to guidance to
    decisionmakers in the DoD functional communities.

            b. Develop object class codes to facilitate recording transactions to
    distinguish between software to be capitalized or expensed. In addition,
    establish an object class for internally developed software.

           c. Establish an in-process account for software in development that
    follows the U.S. Government Standard General Ledger Chart of Accounts.
    The account is 1832, “Internal-Use Software in Development.” This
    account should be used to accumulate the costs associated with software in
    development.

            Management Comments. The Under Secretary of Defense
    (Comptroller)/Chief Financial Officer concurred. The Under Secretary stated
    that a working group composed of members from the financial management and
    information technology disciplines of the Military Departments and Defense
    agencies, as well as the Office of the Inspector General of the Department of
    Defense are addressing the report’s recommendations. The working group’s
    efforts should improve internal use software reporting.

            Audit Response. Management comments were responsive. As
    addressed in Appendix A, the audit team members did participate in the Internal
    Use Software working group meetings. We limited our participation in the
    working group to observation and comments on agenda items. We did not make
    recommendations or vote on any recommendations made by the working group.
    We do, however, commend the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer for the initiation of the working group and the progress
    already made. As stated in the comments from the DoD Components reviewed,
    definitive guidance on accounting and reporting internal use software is needed.

    A. 2. We recommend that the Director, Defense Finance and Accounting
    Service in conjunction with the DoD Components:

           a. Use object class codes established by the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer to facilitate recording
    transactions to distinguish between software to be capitalized or expensed.




                                       14
       Management Comments. The Director, Defense Finance and
Accounting Service concurred and agreed to use object class codes established
by the Under Secretary of Defense (Comptroller)/Chief Financial Officer to
improve capitalizing and expensing costs associated with internal use software.

       b. Implement a system to capture material internal software costs.

       Management Comments. The Director, Defense Finance and
Accounting Service concurred and agreed to implement a system to capture
material internal software costs upon receipt of guidance from the Under
Secretary of Defense (Comptroller)/Chief Financial Officer.

        c. Calculate the amount of funds spent through September 30, 2001,
for software currently in development that were initiated in prior years and
summarize these costs to a construction-in-progress account. Using existing
guidance, determine which software should be capitalized and which should
be expensed.

       Management Comments. The Director, Defense Finance and
Accounting Service concurred and in conjunction with the Under Secretary of
Defense (Comptroller)/Chief Financial Officer, plan to request the necessary
information from the DoD Components using a data call process and a template.
Once the responses are received, an Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer task force will review and analyze the
responses for reasonableness and support.

       Audit Response. We commend the Director, Defense Finance and
Accounting Service for the work performed to gather the internal use software
information needed to report in the financial statements.




                                   15
           B. Compliance With DoD Guidance on
              Property Accountability
           The DoD Components did not have subsidiary ledgers to support the
           amounts reported in the general ledger. The lack of ledgers occurred
           because the DoD Components were not complying with existing
           requirements to maintain property accountability records for property,
           plant, and equipment. As a result, the DoD Components did not have
           the necessary information to correctly report the value of internal use
           software and to calculate the amount of annual depreciation for the
           software.

Property Accountability
    The DoD Components did not maintain property records for accountable
    software items (acquisition cost of $5,000 or higher). The lack of property
    records occurred because the DoD Components did not follow the Office of the
    Under Secretary of Defense for Acquisition, Technology, and Logistics Draft
    DoD 5000.nn-M, “Property, Plant, and Equipment Accountability,” October
    1999 and updated (PP&E manual) and the DoD FMR. As a result, the DoD
    Components did not have the cost information needed to determine whether a
    software item had enough accumulated costs to classify as an asset or whether
    the costs should be expensed.

    On January 19, 2000, the Office of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics issued a memorandum directing the
    DoD Components to implement the PP&E manual even though it had not been
    finalized. The PP&E manual directs that DoD Components maintain a formal
    set of PP&E accountable records in an accountability system. At a minimum, a
    property record should contain the software acquisition date, cost, depreciation
    interval, and identifying information. According to the PP&E manual,
               The DoD Components are required to ensure that government owned
               or leased PP&E are properly used and maintained and that proper
               custody, safekeeping, record keeping, and proper final disposal are
               provided. This includes the responsibility to maintain adequate and
               complete accountable records with sufficient information to allow
               DoD financial managers to properly report PP&E information in
               annual financial statements.

    The DoD FMR also requires accountability records for PP&E that meet or
    exceed the DoD accountability threshold, currently $5,000. The USD(C/CFO)
    issued guidance for software reporting in DoD FMR, volume 4, “Accounting
    Policy and Procedures,” chapter 6, “Property, Plant, and Equipment,” August
    2000. The FMR states that property records should contain sufficient
    information to control physical quantities, location, and unit cost of PP&E. The
    property records should be supported by source documents that capture all
    transactions affecting the investment.



                                          16
    Effective compliance with the provisions of SFFAS No. 10 requires that the
    DoD Components maintain a subsidiary ledger containing details about cost,
    acquisition date, depreciation interval, and identifying information for each item
    of internal use software. A subsidiary ledger is especially important for the
    calculation of depreciation or when writing off the costs of software that is
    impaired or withdrawn from use. DoD requirements for maintaining property
    records for accountable property will provide the required subsidiary ledger
    information without the time and expense of developing separate subsidiary
    ledgers for meeting SFFAS No. 10 requirements for financial reporting.

    The recommendations in finding A will, if implemented, improve the initial
    recording of financial transactions using correct transaction codes. The
    recommendations will also allow for the accumulation of direct and indirect
    costs for software in development, and the accumulation of amounts to the
    Internal-Use Software in Development account during development. However,
    once the payment is made for COTS software or the software in development is
    completed, the costs must be transferred to a subsidiary account for maintaining
    the details for effective asset reporting and depreciation calculations. Recording
    the information required by the PP&E manual in a property accountability
    system will provide the information necessary for complying with SFFAS
    No. 10 without the need to develop a separate subsidiary ledger for financial
    reporting.

Recommendations and Management Comments
    B. We recommend that the Director, Defense Finance and Accounting
    Service, in conjunction with the DoD Components:

          1. Comply with the existing DoD regulations, Financial Management
    Regulation, volume 4, “Accounting Policy and Procedures,” chapter 6,
    “Property, Plant, and Equipment,” August 2000, and Draft
    DoD 5000.nn-M, “Property, Plant, and Equipment Accountability,”
    October 1999 and updated, which require maintaining property
    accountability records for items (software) over $5,000.

            Management Comments. The Director, Defense Finance and
    Accounting Service concurred and agreed to comply with existing DoD
    regulations mandating property accountability.

           2. Use the property records as the subsidiary ledger for internal use
    software. The subsidiary ledger should provide support for reporting the
    value of software meeting the DoD capitalization threshold and the
    depreciation expense for that software.

           Management Comments. The Director, Defense Finance and
    Accounting Service concurred and recommended the development of a property
    system where records are deposited and maintained. This system would also be
    the subsidiary ledger for all property.



                                        17
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We evaluated the internal controls associated with the
    reporting of internal use software on the DoD Agency-Wide financial statements
    in compliance with SFFAS Nos. 6 and 10. We identified the sources the DoD
    Components used to report internal use software. We evaluated the
    management controls associated with the flow of software costs through DFAS
    to the financial statements. During the course of the audit, we met with and
    gathered information from DFAS, TRICARE Management Activity, WHS,
    Defense Human Resource Activity, Defense Threat Reduction Agency, Joint
    Staff, DoDEA, and the Office of the Secretary of Defense.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the financial management high-risk area.

    Use of Computer-Processed Data. To achieve the audit objectives, we did rely
    on computer-processed data. We used computer-processed data to determine the
    amounts reported by the DoD Components. The computer-processed data were
    from the Defense Departmental Reporting Systems, the Washington
    Headquarters Services Allotment Accounting System, and the Assistant
    Secretary of Defense (Command, Control, Communications, and Intelligence)
    database containing materials for justification of the FY 2001 and FY 2002
    President’s budget request. The systems were used to obtain financial
    information on internal use software for DoD. We did not test the reliability or
    accuracy of these systems or databases because the data could be verified outside
    of the systems. We were able to provide conclusions and recommendations
    based on the data.

    Audit Dates and Standards. We performed this audit from March 2001
    through December 2001 in accordance with generally accepted government
    auditing standards except for the potential personal impairment described below.
    The audit team members participated in the Internal Use Software working
    group meetings. The purpose of the working group is to assist DoD
    Components in implementing SFFAS No. 10, “Accounting for Internal Use
    Software,” October 9, 1998. We limited our participation in the working group
    to observation and comments on agenda items. We do not make
    recommendations or vote on any recommendations made by the working group.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.




                                       18
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of controls that provides reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls at the DoD Components with respect to
    reporting internal use software on the financial statements. Specifically, we
    reviewed the management controls to ensure that the amounts reported on the
    financial statements were accurate and that the DoD Components could support
    the reported numbers. We reviewed the self-evaluations applicable to those
    controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for the DoD Components we reviewed as defined by DoD
    Instruction 5010.40. The DoD Components’ management controls for reporting
    the cost of internal use software were not adequate to ensure that the value of
    software shown on the financial reports and statements was complete and
    accurate. Recommendations A.1.a., A.1.b., A.1.c., A.2.a., A.2.b., A.2.c.,
    B.1., and B.2., if implemented, will improve the reporting of internal use
    software on the financial reports. A copy of the report will be provided to the
    senior official responsible for management controls in the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer, the Assistant Secretary of
    Defense (Command, Control, Communications, and Intelligence), and the
    Defense Finance and Accounting Service.

    Adequacy of Management’s Self-Evaluation. We reviewed the adequacy of
    management’s self-evaluation. The DoD Components did not identify internal
    use software as an assessable unit and, therefore, did not identify or report the
    material management control weakness identified by the audit.

Prior Coverage
    General Accounting Office
    GAO Report No. AIMD-00-209R “Review of Defense Software Development
    Best Practices,” June 15, 2000

    Inspector General of the Department of Defense (IG DoD)
    IG DoD Report No. D-2000-128, “Defense Health Program Financial Reporting
    of General Property, Plant, and Equipment,” May 22, 2000

    IG DoD Report No. 99-012, “Use of Funds Appropriated for Major Defense
    Systems,” October 14, 1998


                                        19
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, Department of Defense Education Activity
Director, Washington Headquarters Services
Director, Defense Human Resources Activity
Director, TRICARE Management Activity




                                          20
Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman
  and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         21
Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments




                   23
Defense Finance and Accounting Service
Comments




                      24
25
26
Department of Defense Human Resources
Activity Comments




                        27
Department of Defense Education Activity
Comments




                       28
TRICARE Management Activity
Comments




                29
Final Report
 Reference




Revised




               30
     Final Report
      Reference




     Revised




     Revised




     Revised




     Revised




31
Final Report
 Reference




Revised




               32
33
Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Paul J. Granetto
Richard B. Bird
David F. Vincent
Barbara A. Sauls
Harold R. Tollefson
Kenneth A. Weron
Yolanda C. Watts
Woodrow W. Mack
Marlon A. Moreira
Leon D. Bryant
Yalonda N. Blizzard
Christopher A. Ulrich
Timothy M. Nelson
Crystal A. Oliver
Monica L. Noell
